No. 20-28
IN THE

Supreme Court of the United States
PRICEWATERHOUSECOOPERS LLP, ET AL., Petitioners,
v.
TIMOTHY D. LAURENT, ET AL., Respondents.

____________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 17th day of August, 2020, that the Brief of the Chamber
of Commerce of the United States, the American Benefits Council, and the Business
Roundtable as Amici Curiae Supporting Petitioners contains 5,933 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

Jaime A. Santos
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
Counsel for Amici Curiae
August 17, 2020

